                  U.S. Department of Agriculture

                     Office of Inspector General
                            Great Plains Region




         Audit Report

  Food and Nutrition Service
National School Lunch Program
  Unified School District 290
        Ottawa, Kansas




                        Report No. 27010-11-KC
                                   August 2003
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL - AUDIT
                                          Great Plains Region
                                     8930 Ward Parkway, Suite 3016
                                    Kansas City, Missouri 64114-3302
                                  TEL: 816.926.7667 FAX: 816.926.7676




DATE:          August 5, 2003

REPLY TO
ATTN OF:       27010-11-KC

SUBJECT:       National School Lunch Program – Unified School District 290, Ottawa, Kansas

TO:            William E. Ludwig
               Regional Administrator
               Food and Nutrition Service
               1244 Speer Boulevard, Suite 903
               Denver, CO 80204


This report presents the results of the subject audit. The written response, dated July 14, 2003, to
the draft report has been incorporated into the Findings and Recommendations section of the
report, where appropriate. The response is attached in its entirety as exhibit B. The reply
generally expressed agreement with the recommendations. The Findings and Recommendations
section of the report explains those actions necessary for us to consider management decisions on
Recommendations Nos. 1, 2, 3, and 4. In general, we will need to be provided copies of billings
and advised of the specific actions completed or planned along with acceptable dates for
completing the proposed actions.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the timeframes for accomplishing final action.
Please note that the regulation requires management decisions to be reached on all findings and
recommendations within 6 months from the date of report issuance.

We appreciate the assistance provided to us during our review.

/s/


DENNIS J. GANNON
Regional Inspector General
 for Audit
Executive Summary
Food and Nutrition Service, National School Lunch Program, Ottawa, Kansas (Audit
Report No. 27010-11-KC)

Results in Brief               This report presents the results of our audit of the National School Lunch
                               Program (NSLP)1 as administered by Unified School District 290, the local
                               school food authority (SFA). The Kansas State Department of Education
                               (KSDE) served as the State agency (SA), and the U.S. Department of
                               Agriculture’s (USDA) Food and Nutrition Service (FNS) served as the
                               funding agency. For school year 2001/2002 operations, the SFA claimed
                               about $265,000 in FNS reimbursement and about $8,000 in SA
                               reimbursement.

                               Our objectives were to evaluate the SFA’s meal accountability, procurement,
                               accounting systems, and management controls that were designed to provide
                               reasonable assurance as to the accuracy of its meal claims and reimbursement
                               for school year 2001/2002 and 2002/2003 through December 31, 2002. We
                               found that the SFA had not fully implemented required program management
                               controls.

                               The SFA did not effectively monitor its contracted Food Service Management
                               Company (FSMC). The SFA lacked an effective reconciliation of meals
                               billed by the FSMC to the number of meals claimed to the SA for
                               reimbursement, which contributed to the SFA overclaiming $1,415 and
                               underclaiming $9,410. SFA personnel did not always follow onsite
                               accountability procedures, questionable counts identified by edit checks were
                               not researched and explained, one school did not follow program agreement
                               requirements, and financial information submitted to the SA was inaccurate.
                               The SFA’s accounting procedures did not include crediting a pro rata share of
                               interest earned from investments to the food service account.

Recommendations
In Brief                       We recommended that FNS require the SA to direct the SFA to follow
                               procedures that ensure compliance with the program agreement between the
                               SA and SFA. We also recommended that the SFA submit revised
                               reimbursement claims to the SA to correct the cited overclaims and request
                               advice on the correction of the cited underclaims.

                               FNS should also require the SA to direct the SFA to strengthen the internal
                               controls by increased monitoring of FSMC bills and require the SFA to
                               research and resolve potential edit check errors, as well as advise the SFA to
                               reconcile the food service fund and the Annual Financial Status Summary.


1
    Also includes the School Breakfast Program (SBP).
USDA/OIG-A/27010-11-KC                                                                                Page i
                  We also recommended that FNS require the SA to direct the SFA to begin
                  crediting the SFA food service account with a pro rata share of the investment
                  income.
Agency
Response           The agency response showed FNS officials concurred with three of the
                   recommendations and did not specifically address actions to be taken on the
                   underclaims. We incorporated their comments in the applicable sections of
                   the report and attached a copy of the comments as exhibit B.
OIG
Position           We can accept the management decisions once we receive specific
                   timeframes for the completion of the proposed actions. In addition, we will
                   need evidence showing the questioned costs have been recovered or an
                   accounts receivable established and documentation showing specific actions
                   to be taken on the underclaims.




USDA/OIG-A/27010-11-KC                                                                   Page ii
Abbreviations Used in This Report

CFR               Code of Federal Regulations
FNS               Food and Nutrition Service
FSMC              Food Service Management Company
KSDE              Kansas State Department of Education
NSLP              National School Lunch Program
RFP               Request for Proposal
SA                State Agency
SFA               School Food Authority
SBP               School Breakfast Program
USDA              U.S. Department of Agriculture




USDA/OIG-A/27010-11-KC                                   Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Internal Controls Over The NSLP/SBP ........................................................................ 3

        Finding 1             Lack of Internal Controls Resulted in Erroneous Reports and Inadequate
                              Monitoring of the Food Service Management Company (FSMC) ......................... 3
                                   Recommendation No. 1.................................................................................... 7
                                   Recommendation No. 2.................................................................................... 7
                                   Recommendation No. 3.................................................................................... 8
        Finding 2             Interest Income was Not Prorated to the Food Service Fund.................................. 8
                                   Recommendation No. 4.................................................................................... 8

Scope and Methodology........................................................................................................................ 10

Exhibit A – Summary of Monetary Results ....................................................................................... 12
Exhibit B – FNS Response to the Draft Report.................................................................................. 13




USDA/OIG-A/27010-11-KC                                                                                                                   Page iv
Background and Objectives
Background               On June 4, 1946, Congress passed the National School Lunch Act,2 now the
                         Richard B. Russell National School Lunch Act, which authorizes Federal
                         school lunch assistance.       The intent of the Act, as amended
                         December 29, 2001, is to safeguard the health and well-being of the Nation’s
                         children by providing them with nutritious foods and to encourage the
                         domestic consumption of nutritious agricultural commodities and other
                         foods. This is accomplished by assisting States, through grants-in-aid and
                         other means, in providing an adequate supply of food and facilities for the
                         establishment, maintenance, operation, and expansion of nonprofit school
                         lunch programs.

                         The Act, as amended, authorizes the payment of general and special
                         assistance funds to States, based upon the number and category of lunches
                         served. Section 4 of the Act authorizes general cash assistance payment for
                         all lunches served to children in accordance with the provisions of the
                         National School Lunch Program (NSLP) and additional special cash
                         assistance for lunches served under the NSLP to children determined eligible
                         for free or reduced-price lunches. The States are reimbursed at various rates
                         per lunch, depending on whether the child was served a free, reduced-price,
                         or full-price (paid) lunch. Eligibility of children for free or reduced-price
                         lunches is based upon their family’s household size and income, as listed in
                         the Food and Nutrition Service (FNS) Income Eligibility Guidelines, which
                         are reviewed annually.

                         FNS is the U.S. Department of Agriculture (USDA) agency responsible for
                         administering the NSLP/School Breakfast Program (SBP).              FNS is
                         headquartered in Alexandria, Virginia, and has seven regional offices
                         nationwide. The FNS Mountain Plains Regional office, located in Denver,
                         Colorado, is responsible for monitoring and overseeing operations in
                         Kansas. The Kansas State Department of Education (KSDE) serves as the
                         State agency (SA) and is responsible for overseeing program operations
                         within Kansas. The School Food Authority (SFA), located in Ottawa,
                         Kansas, is responsible for operating the NSLP in accordance with
                         regulations. Each SA is required to enter into a written agreement with FNS
                         to administer the NSLP/SBP, and each SA enters into agreements with
                         SFA’s to oversee day-to-day operations. The SFA administered the
                         NSLP/SBP in eight public schools.

                         The fiscal year 2002 funding for the NSLP was $6 billion for meal
                         reimbursements of approximately 4.7 billion lunches. The general NSLP
                         requirements are codified in Title 7, Code of Federal Regulations
                         (CFR) 210.     Requirements for determining eligibility for free and
2
    42 U.S. Code 1751.

USDA/OIG-A/27010-11-KC                                                                         Page 1
                   reduced-price meals and free milk are codified in 7 CFR 245. In accordance
                   with 7 CFR 250, USDA also provides donated foods to SFA’s to assist in
                   operating the nonprofit lunch program. The Kansas SA generally provides
                   cash in lieu of actual commodities. Generally, schools must collect
                   applications on an annual basis from households of enrolled children and
                   make annual determinations of their eligibility for free or reduced-price
                   meals. These schools must also count the number of free, reduced-price, and
                   paid meals served at the point-of-service on a daily basis.

Objectives         The objectives of our review were to evaluate controls over the
                   administration of the NSLP and SBP. We evaluated policies and procedures
                   over meal accountability and oversight of program operation. To accomplish
                   this, we evaluated (1) the accuracy of collections and accounting for
                   reimbursed meals, (2) the accounting and use of program funds relating to the
                   SFA’s procurement of goods and services, and (3) the accounting for the
                   SFA’s school food service account.




USDA/OIG-A/27010-11-KC                                                                   Page 2
Findings and Recommendations
Section 1. Internal Controls Over The NSLP/SBP

Finding 1                      Lack of Internal Controls Resulted in Erroneous Reports and
                               Inadequate Monitoring of the Food Service Management
                               Company (FSMC)

                                The internal controls used by the SFA did not ensure accurate meal counts
                                claimed for reimbursement. The SFA was also not monitoring the food service
                                program expenses submitted by the FSMC. Edit checks over the number of
                                meals claimed and accuracy of reports to the SA were ineffective. The SFA
                                employee responsible for overseeing the FSMC operations was not aware of
                                the need to review the billings in detail and did not understand monthly billing
                                statements. As a result, the SFA lacked assurances that the bills submitted by
                                the FSMC and the claims and financial reports to the SA were correct. The
                                lack of full reconciliations of the number of meals billed by the FSMC to the
                                reimbursable meals claimed with the SA contributed to the SFA not identifying
                                errors in its supporting documents and the resulting overclaim of $1,415 and
                                underclaim of $9,410.

                                The SA requires the SFA to monitor the FSMC operations through periodic
                                onsite visits.3 Federal regulations require that internal controls must
                                maintain effective control and accountability for all grants and subgrants,
                                cash, real and personal property, and other assets. The grantee and
                                subgrantees must adequately safeguard all such property and assure that it is
                                used solely for the authorized purposes.4 5

                                a. Meals Billed Differed From Claims To SA.

                                    The SFA did not effectively reconcile the number of meals billed by the
                                    FSMC to the meals claimed for reimbursement. SFA personnel said they
                                    compared billings to claims. However, our review showed the control was
                                    not working because errors in documents supporting meal counts were not
                                    detected. As a result, reimbursements from the SA were overstated $1,415



3
  KSDE Food Service Handbook, Chapter 8, and 7 CFR 210.16.
4
  7 CFR 3016.20(b) 3.
5
  FNS officials noted that the Federal requirements for the SFA to assure the accuracy of the reimbursement claim,
including the specific edits and procedures to be followed to help assure this accuracy, are the sole "controls" or checks that
are specifically set forth for SFA’s to follow. However, the officials agreed that any SFA that utilizes an FSMC should
always check the company's billings for meals against the number of meals that the SFA has computed for its
reimbursement claim each month, primarily to review the FSMC billing accuracy, but also as a prudent check on its own
computations. The officials noted that when this comparison of SFA claim calculations to FSMC billings is made, any
discrepancies should be investigated and resolved to assure the accuracy of claims and billings.

USDA/OIG-A/27010-11-KC                                                                                                Page 3
                                    for August 2001 and understated $9,4106 for February 2002 (see exhibit
                                    A).

                                    For example, in August 2001, the FSMC billed the SFA for 1,810
                                    breakfasts. However, the SFA submitted a claim to the SA for 3,344
                                    reimbursable breakfasts. We determined that the SFA claimed 1,534 meals
                                    twice, once as regular breakfasts and again as severe-need breakfasts.

                                    In February 2002, the FSMC billed reimbursable meals to the SFA for
                                    18,999 lunches and 5,281 breakfasts. However, the SFA’s claims to the
                                    SA reported only 12,389 reimbursable lunches and 4,212 breakfasts. We
                                    determined that the SFA made an addition error during the calculation of
                                    the column totals used to complete the monthly total of meals reported to
                                    the SA (the SFA did not include meal counts for two schools in the totals).
                                    The SFA understated the number of lunches by 6,610 and understated
                                    severe-need breakfasts by 1,069.

                                b. Meal Edit Checks Were Not Effective.

                                    The edit checks to ensure the accuracy of daily meal counts were not
                                    sufficiently researched and resolved. We found that for 23 of 53 days
                                    during the period of October 2002 through December 2002, neither the
                                    personnel at the school nor central office personnel provided
                                    explanations when meal counts were larger than the number of approved
                                    applications multiplied by the attendance factor. In four instances, the
                                    counts were larger than the number of approved applications.

                                    Federal regulations require that edit checks shall compare each school’s
                                    daily counts of free, reduced-price, and paid lunches against the product
                                    of the number of children in the school currently eligible for free,
                                    reduced-price, and paid lunches times an attendance factor.7

                                    The edit check form used by the SFA requires an explanation for meal
                                    counts that exceed the maximum number of students eligible times the
                                    attendance factor.

                                    The responsibility to monitor the school’s daily record of meals claimed
                                    was given to the SFA central office personnel. These employees did not
                                    always recognize instances that needed explanations of potentially
                                    excessive meal claims. The SFA official who performed the edit checks
                                    stated that she attempted to explain larger meal counts but overlooked
                                    researching some high counts. Subsequently, SFA central office
                                    personnel were able to provide additional applications to support the


6
    Does not include an underclaim of $297 of SA funds.
7
    7 CFR 210.8(a)(3).

USDA/OIG-A/27010-11-KC                                                                                  Page 4
                                 meals claimed. We concluded the edit check process was not
                                 functioning as intended to prevent excessive claims on meal counts.

                            c. Meal Accountability Procedures Not Followed.

                                 Meal accountability procedures observed at one school were not
                                 consistent with the program agreement. An FSMC official stated that
                                 accountability procedures were not performed, as described in the
                                 agreement, because students did not always have their meal cards with
                                 them or the meal card had been lost.

                                 Federal regulations8 require the SFA to enter into an agreement with the
                                 State. KSDE Food Service Facts Handbook - 1999 states that an
                                 authorized representative of the SFA must assure that the local program
                                 complies with the program agreement between the SFA and SA.9 The
                                 program agreement for Ottawa High School accountability procedures
                                 states, “At the end of the serving line, coded tickets/cards are counted,
                                 clipped, punched, marked, or scanned. The cashier uses the tally of
                                 tickets/cards or the computer to determine the daily count by category.”

                                 We found the actual procedures in practice differed from the approved
                                 procedures. At Ottawa High School, we observed the students give the
                                 cashier their name and the cashier typed in the name and selected the
                                 student from a listing displayed on the screen. Only a few cards were
                                 actually scanned.

                            d. SFA Did Not Adequately Monitor FSMC Billings and Contract Terms.

                                 According to SFA employees, some categories of FSMC billings were
                                 never monitored because they were unsure what the contract required or
                                 what checks of FSMC expenses were needed. Employees stated they did
                                 not review food invoices or other FSMC documents to support expense
                                 items that were detailed on the monthly bill submitted to the SFA
                                 including travel, sales promotions, cleaning supplies, laundry, training,
                                 computer depreciation, and food service bar depreciation. (However,
                                 SFA personnel did perform some checks of expenses related to fuel used
                                 for delivery vehicles, equipment repair, paper supplies, and special
                                 catering services.) SFA officials could not provide an explanation of
                                 how the charges were determined by the FSMC nor state if the costs
                                 were reasonable. While we did not identify any specifically ineligible
                                 items, we believe the SFA employees should be periodically testing each


8
  7 CFR 210.9(b).
9
  The agreement between the KSDE and the SFA, as permitted under 7 CFR 210.19(e), is more restrictive than Federal
regulations governing counting and claiming procedures under 7 CFR 210.7(c) by requiring each SFA to identify the
specific counting and claiming systems used at each participating school.

USDA/OIG-A/27010-11-KC                                                                                    Page 5
                            type of FSMC expense and have sufficient controls in place to determine
                            if the reported expenses are reasonable.

                            SFA employees could not demonstrate that the FSMC fully complied
                            with all contract terms. The employee responsible for overseeing the
                            contract was not familiar with all contract terms and could not provide
                            evidence the FSMC had performed in full accord with the contract. For
                            example, the contract showed the FSMC was to provide up to $20,000 in
                            new equipment to the SFA to implement marketing and merchandising
                            programs, as stated in the contract. The FSMC monthly bill contained an
                            expense for depreciation. We could not confirm the amount of
                            equipment purchased by the FSMC that was being depreciated. The
                            SFA employee could not initially explain what the billing represented.
                            Because the contract stated that the FSMC agreed to supply new
                            equipment, we believe it is questionable if depreciation should be
                            considered a direct cost of the food service account.

                            In addition, the Annual Financial Status Summary for the school year
                            2001/2002 indicated a loss of $10,359; however, the request for proposal
                            (RFP)/contract with the FSMC guaranteed no loss. The RFP fee
                            structure states, “Guaranteed No Loss – The Contractor shall guarantee
                            the sponsor no loss for the operation of the food service program. The
                            contractor shall bill the sponsor for eligible direct costs of operation, as
                            specified in exhibit H (Division of Responsibilities for the Food Service
                            Program), plus the Administrative/Service Fee as specified in exhibit P.”
                            However, exhibit N (Miscellaneous Contractor Proposals), No. 5 states,
                            “Understand that the district has $89,388 in cost that are sponsor-added
                            to the financials per your request, (the contractor) is committed to the
                            guaranteed return to the district of $63,381 less these additional financial
                            requirement.” The RFP differs from exhibit N, No. 5. SFA employees
                            did not understand how to correctly monitor the guaranteed no loss
                            provision, which is unclear in the contract.

                         e. Report to SA was Inaccurate.

                            The Annual Financial Status Summary for the year ending June 2002,
                            which the SFA submitted to the SA, contained inaccuracies. Errors
                            occurred because the SFA did not reconcile the SA report and the food
                            service ledger. As a result, the reported revenue was overstated by $859
                            and expenditures were overstated by $2,688.

                            Federal regulations require that effective controls and accountability must
                            be maintained.10



10
     7 CFR 3016.20(b).

USDA/OIG-A/27010-11-KC                                                                           Page 6
                         SFA personnel made an adjusting entry to the Annual Financial Status
                         Summary of $859; however, the amount was already included in another
                         account, resulting in an overstatement of revenue.

                         The SFA overstated expenses due to a posting error in the general ledger.
                         SFA personnel determined that the entry should have been for $27.15, not
                         the $2,715 recorded, which resulted in a net overstatement of expenses by
                         $2,688.

Recommendation No. 1

                   Instruct the SA to require the SFA to strengthen internal controls over
                   operations of the food service account by (1) reconciling any inconsistencies
                   between the meals billed by the FSMC and the meals claimed for
                   reimbursement from the SA, (2) researching and resolving all cases when edit
                   checks reveal a potential overclaim of meals, (3) providing additional
                   oversight of monitoring visits to ensure they detect and prevent
                   noncompliance with program requirements, (4) increasing monitoring of
                   FSMC billings and contract terms, and (5) reconciling the ledger to the
                   Annual Financial Status Summary.

                   Agency Response.

                   The FNS response (attached as exhibit B) showed the agency concurred with
                   Recommendation No. 1.

                   OIG Position.

                   We can accept the management decision once we receive specific timeframes
                   for the completion of the proposed action.

Recommendation No. 2

                   Instruct the SA to require the SFA to correct the cited overclaim.

                   Agency Response.

                   The FNS response showed the agency concurred with Recommendation No.
                   2 and will instruct the SA to require the SFA to correct the overclaim
                   identified in Finding. No. 1.

                   OIG Position.

                   We can accept the management decision once we receive evidence the
                   questioned costs have been recovered or an accounts receivable established.



USDA/OIG-A/27010-11-KC                                                                     Page 7
Recommendation No. 3

                    Request the SA to provide advice to the SFA on requirements and actions to
                    be taken to correct the cited underclaim.

                    Agency Response.

                    The FNS response did not address this recommendation.

                    OIG Position.

                    We can accept the management decision once we receive the FNS
                    determination on the amount of the underclaim and the specific actions to be
                    taken along with dates for completing the corrective actions.


Finding 2           Interest Income was Not Prorated to the Food Service Fund

                    The SFA did not credit the school food service account with a prorated share
                    of interest earned from investments. According to the SFA, the SA had never
                    instructed the SFA to allocate interest to the school food service account. As
                    a result, we estimated the earned monthly interest that should have been
                    credited to the food service account to be between $24 and $238 per month.

                    The Federal regulations definition of revenue shows that a prorated share of
                    interest earned from investments should be credited to the school food
                    services account.11

                    The monthly closing cash balances for school year 2001/2002 ranged from
                    approximately $25,000 to $145,000, and the interest rates earned on the
                    district’s investment account ranged from 1.16 percent to 1.97 percent. The
                    SFA deposits all food service funds into the district checking account, which
                    earns interest monthly on funds in the account. The SFA placed all interest
                    earned from investment accounts into a capital outlay fund. The capital
                    outlay fund is used for equipment, construction, improvements, etc. Because
                    the SFA historically transferred general funds to the food service account,
                    we are not questioning any costs, but we believe the earnings from the
                    balance in the school food service account should be recognized in the
                    SFA’s accounting system.

Recommendation No. 4



11
     7 CFR 210.2.

USDA/OIG-A/27010-11-KC                                                                     Page 8
                   Require the SA to instruct the SFA to credit the school food service account
                   with a prorated share of the investment income.

                   Agency Response.

                   The FNS response showed the agency will instruct the SA to require the SFA
                   to credit the food service account with its prorated share of the investment
                   income.

                   OIG Position.

                   We can accept the management decision once we receive satisfactory
                   timeframes for the completion of the proposed action.




USDA/OIG-A/27010-11-KC                                                                  Page 9
Scope and Methodology
                  Our review primarily covered NSLP/SBP operations July 1, 2001, to
                  December 31, 2002, concentrating on operations since July 1, 2002.
                  However, records for other periods were reviewed, as deemed necessary. We
                  performed audit work at the FNS Regional office, Kansas SA, and the SFA in
                  Ottawa, Kansas. Fieldwork was performed during the period January through
                  March 2003.

                  In school years 2001/2002 and 2002/2003 there were five elementary schools,
                  one middle school, one achievement center, and one high school. We
                  reviewed NSLP/SBP claims of all eight schools (achievement center and high
                  school claims are consolidated) and made observations at an elementary
                  school, middle school, and high school. Our audit was performed in
                  accordance with Government Auditing Standards.

                  To accomplish our review objectives, we reviewed FNS, SA, and SFA
                  regulations, policies, procedures, manuals, and instructions governing
                  NSLP/SBP operations.          We also reviewed the SA’s most recent
                  administrative review of the SFA’s NSLP/SBP operations and the SFA’s
                  corrective actions taken in response to the administrative review findings and
                  recommendations. The following audit procedures were also performed:

                  •   Interviewed officials from the SA, SFA, and FSMC in order to obtain an
                      overview of their method of operation for the NSLP/SBP;

                  •   Evaluated the SFA’s procedures used to gather and consolidate monthly
                      meal claims and whether reports are verified for accuracy;

                  •   Evaluated edit check controls used to assure the reasonableness of claims
                      for reimbursement when daily meal counts, by category, exceeded average
                      daily attendance;

                  •   Reviewed the SFA’s accounting system, which included a review of
                      program funds and interest on those funds;

                  •   Analyzed the monitoring efforts of the SFA through a review of the onsite
                      accountability reviews conducted during school year 2001/2002;

                  •   Reviewed the SFA’s procedures for issuing RFP’s/Contracts with FSMC
                      to operate the nonprofit food service;

                  •   Reviewed the most recent RFP/contract with FSMC; and


USDA/OIG-A/27010-11-KC                                                                  Page 10
                  •   Compared the number of meals claimed (for each category) by the SFA to
                      the SA to the number of meals billed by the FSMC on their monthly
                      invoices.




USDA/OIG-A/27010-11-KC                                                              Page 11
Exhibit A – Summary of Monetary Results
     Finding No.                  Description             Amount         Category
1                      SFA overclaimed number of           $1,415   1/
                       eligible meals for reimbursement
1                      SFA underclaimed number of         $9,410    2/
                       eligible meals for reimbursement


1/ Questioned Costs, Recovery Recommended
2/ Underpayments




USDA/OIG-A/27010-11-KC                                                          Page 12
Exhibit B – FNS Response to the Draft Report




USDA/OIG-A/27010-11-KC                         Page 13
